CERTIFICATE OF SERVICE

Thereby certify that on this 6th day of November, 2019, I served a copy of the Application
for Extension of Time to File Petition For Writ of Certiorari on counsel for respondent by placing it

in the United States mail, first class postage prepaid, addressed to:

Craig S. Primis, Esq.

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004

(202) 879-5000

I further certify that all parties required to be served have been sérv

 

Counsel for Petitjgners
